GR-90-98-010
U.S. DEPARTMENT OF JUSTICE
 

Audit Report
 

OFFICE OF COMMUNITY ORIENTED POLICING SERVICES
GRANTS TO THE OREGON STATE POLICE
OREGON
GR-90-98-010
MARCH 1998
 

EXECUTIVE SUMMARY 
 
The Office of the Inspector General, Audit Division, has completed an audit of three
grants awarded by the U.S. Department of Justice (DOJ), Office of Community Oriented
Policing Services (COPS), to the Oregon State Police (OSP). The OSP received a grant of
$1,575,000 to hire or rehire 21 officers under the Accelerated Hiring, Education, and
Deployment (AHEAD) program, $1,599,318 to redeploy 74.1 full-time equivalents (FTEs) under
the Making Officer Redeployment Effective (MORE) program, and $6,075,000 to hire 81
officers under the Universal Hiring Supplemental Program (UHP). The purpose of the
additional officers is to enhance community policing efforts. 
In brief, the OSP violated the following grant conditions:


- The number of sworn officers budgeted from state funds decreased during the grant
    period, an indication that Oregon supplanted local funds for the hiring of law enforcement
    officers with COPS grant funds. As a result, we questioned $284,037 in reimbursements for
    the AHEAD grant positions supplanted. 




- Charged unallowable costs totaling $59,054 to the AHEAD grant and $56,852 to the MORE
    grant. These unallowable costs included: unauthorized retirement contributions, pay
    incentives, double pay for worked holidays, transit taxes, and unauthorized salary
    payments.
- The OSP was unable to demonstrate the redeployment of 50.1 sworn officers (FTEs) to
    community policing ensuing from the MORE grant resulting in $1,062,127 of unsupported
    costs.
- The Oregon State Legislature decided not to accept a supplemental UHP grant
    subsequent to its approval by COPS. OSP had not informed COPS of this decision. COPS
    should terminate this grant and deobligate $6,075,000.
- The OSP was overpaid $113,452 for the MORE grant because of a LOCES billing error.


 
#####